<html>
<title> - FEDERAL OFFENDER REENTRY AND PROTECTING CHILDREN FROM CRIMINAL RECIDIVISTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



    FEDERAL OFFENDER REENTRY AND PROTECTING CHILDREN FROM CRIMINAL 
                              RECIDIVISTS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 7, 2004

                               __________

                             Serial No. 116

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-288                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

TOM FEENEY, Florida                  ROBERT C. SCOTT, Virginia
BOB GOODLATTE, Virginia              ADAM B. SCHIFF, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
MARK GREEN, Wisconsin                MAXINE WATERS, California
RIC KELLER, Florida                  MARTIN T. MEEHAN, Massachusetts
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia

                      Jay Apperson, Chief Counsel

                        Elizabeth Sokul, Counsel

                          Katy Crooks, Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            OCTOBER 7, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio..................................................     4

                               WITNESSES

The Honorable Rob Portman, a Representative in Congress from the 
  State of Ohio
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9
The Honorable Katherine Harris, a Representative in Congress from 
  the State of Florida
  Oral Testimony.................................................    10
  Prepared Statement.............................................    12
Mr. Ashbel T. Wall, II, Director, Rhode Island Department of 
  Corrections
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15
Ms. Malika Saada Saar, Executive Director, Rebecca Project for 
  Human Rights
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............    37
Prepared statement of the Honorable John Conyers, Jr., a 
  Representative in Congress From the State of Michigan..........    42
Prepared statement of the Honorable Danny Davis, a Representative 
  in Congress from the State of Illinois.........................    45
Post-hearing questions from the Honorable Sheila Jackson Lee to 
  the hearing witnesses..........................................    47
Response to post-hearing questions from the Honorable Rob Portman    49
Response to post-hearing questions from the Honorable Katherine 
  Harris.........................................................    52
Response to post-hearing questions from Ashbel T. Wall, II.......    53

 
    FEDERAL OFFENDER REENTRY AND PROTECTING CHILDREN FROM CRIMINAL 
                              RECIDIVISTS

                              ----------                              


                       THURSDAY, OCTOBER 7, 2004

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:05 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Howard Coble 
(Chair of the Subcommittee) presiding.
    Mr. Coble. Good morning, ladies and gentlemen. The 
Subcommittee will come to order. Mr. Portman, the gentleman 
from Ohio, is en route I am told.
    As an aside before we get started, the gentlelady from 
Florida, Ms. Harris, and Mr. Portman have tenaciously badgered 
me for a hearing for the past several weeks. When I say 
``badger'' I don't mean that in the evil sense; rather, in the 
persistent sense. And even though I think nothing's going to be 
done regarding this issue legislatively this session, I 
thought, Mr. Scott, this hearing might at least direct 
attention to it and maybe we'll get a jump start when we come 
back next year.
    But today the Subcommittee on Crime, Terrorism, and 
Homeland Security is conducting an oversight hearing to examine 
current prisoner reentry programs and assess what if any 
reforms should be made to more effectively address the high 
recidivism rate of prisoners leaving Federal and State and 
local jails and prisons and their impact on society as a whole.
    I am pleased to welcome two of our colleagues--well, one of 
our colleagues, the other one's on the way--to the panel who 
have introduced legislation in this Congress that would 
coordinate offender reentry programs and clarify and strengthen 
notification and child protection laws.
    I also welcome our other witnesses representing State 
government officials and a nonprofit organization directly 
involved in the implementation of prisoner reentry programs.
    Data from the Department of Justice suggests that 
approximately 95 percent of State prisoners will be released 
from prison at some point, at a rate of 600,000 people per 
year, perhaps as many as 750,000 if we include juvenile 
offenders released from secure juvenile detention facilities, 
and that does not include those released from short-term 
detention in local jails. Unfortunately, it is expected that 
two-thirds of these offenders released from prison will be 
subsequently arrested again for a felony or serious misdemeanor 
within 3 years.
    Groups working with prisoner reentering society identify 
specific obstacles from the transition back to normal life from 
released criminal offenders. These problems include but are not 
limited to locating adequate housing and job opportunities, 
reuniting with their families, assessing appropriate 
educational programs, and treating substance abuse. It is 
estimated that 70 to 80 percent of offenders reentering the 
community have histories of drug abuse or alcohol abuse.
    Furthermore, an increasing number of offenders have mental 
health problems, and those of you who closely follow the 
actions of our Subcommittee and full Committee may be aware 
that the bill addressing mentally ill offenders passed the 
House Judiciary Committee last week and I believe passed the 
full House yesterday.
    My interest in the issue of prisoner recidivism and reentry 
is twofold: First, I look forward to hearing from our witnesses 
regarding specific problems facing prisoners reentering 
society, the role of the Federal Government in prisoner reentry 
programs and what part it should play in reforming the current 
programs to make them more effective. Second, I would like to 
hear about the impact recidivism has on Federal, State, and 
local crime rates and its cost to State and local communities.
    During my tenure in Congress, I have consistently supported 
policies that are tough on crime. I believe tough criminal 
penalties deter crime, appropriately punish offenders, and 
create a sober society for all Americans. I also believe, 
however, that we should craft Federal policies that enable 
States and localities to assist individuals leaving the prison 
system and reentering society instead of inadvertently tying 
the hands of these groups and people who want to help in that 
transition and those ex-offenders who want to be successful 
law-abiding citizens in society.
    I also note that the Government does not have all the 
answers and we need to seriously consider the success rate of 
faith-based organizations in this area that often far exceed 
the success rates of Government-run programs.
    All of us here, Republicans, Democrats alike, have a united 
goal of decreasing crime and encouraging growth and prosperity. 
I hope this hearing gives us specific examples of how this goal 
may be achieved and what may be done to control the growing 
cost of crime on society.
    And prior to recognizing the distinguished gentleman from 
Virginia, I want to say that yesterday I had the good fortune 
of attending a breakfast along with Representative Danny Davis 
from Illinois, Representative Mark Green from Wisconsin, Coach 
Osborne from Nebraska was there, a very worthwhile breakfast, I 
think Mr. Davis you'll agree, and good to have you with us 
today.
    I am pleased to recognize the distinguished gentleman from 
Virginia, the Ranking Member, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. And I would like to 
recognize the gentleman from Illinois, Mr. Davis, who has been 
an outstanding leader in reentry organizations. Disappointed to 
see him on your side of the aisle, but----
    Mr. Coble. If the gentleman would yield, we would be glad 
to keep him on our side of the aisle.
    Mr. Scott. But he's welcome wherever he's sitting.
    Thank you, Mr. Chairman. I want to thank you for scheduling 
this hearing for us examining the issue of prison reentry, 
given the growing number of prisoners returning to our 
communities every day, ill prepared to succeed in earning a 
living and leading a law-abiding life.
    While our national crime rates have fallen significantly 
over the past decade, we've seen a continuing and unprecedented 
explosion in our prison and jail populations. We now have on a 
daily basis over 2 million people locked up in our Nation's 
jails and prisons, a fivefold increase of just 20 years ago.
    Prison population in the Federal prisons has increased more 
than sevenfold in the past 20 years. In 1984 the daily lock-up 
count for prisons and jails was approximately 400,000 with 
about 25,000 prisoners in Federal prisons. Today there are more 
than 175,000 Federal prisoners, and the population is growing.
    Both the Sentencing Project and the Federal Bureau of 
Prisons--according to the Sentencing Project and the Federal 
Bureau of Prisons, the primary reason for this tremendous 
growth in jail and prison population has been the longer 
sentences resulting from determinant sentencing schemes and 
mandatory minimum sentences. Over 50 percent of the 
incarcerated inmates are in prison on nonviolent crimes, with 
the greatest percentage being those for drug violations.
    And the United States is the world's leading incarcerator 
by far, with an incarceration rate of 702 inmates per 100,000 
population. The only close competitor is Russia with 632 per 
100,000. And for comparative purposes, the United States now 
locks up its citizens at a rate 5 to 8 times that of the 
industrialized nations we're most familiar with. For example, 
139 per 100,000 in England and Wales, 116 in Canada, 91 per 
100,000 in Germany, 85 per 100,000 in France.
    So as we consider our crime policy, we've got to consider 
what cost-effective methods that we can use to reduce crime. If 
we want to use additional incarceration, we've got to recognize 
the cost. For example, if we want to increase sentences by 10 
percent, that would be an additional 70 inmates per 100,000 
population. In a city like Richmond Virginia, about 200,000 
population, that would be a cost of about $4 million a year.
    Now, a 10 percent increase in sentencing would be like 
going from 5 years to 5\1/2\ years. We know just lengthening 
the sentence does nothing to reduce recidivism and we know 
there's no deterrent value in trying to scare somebody and 
saying we're going to crack down on crime. Instead of 5 years 
you might get 5\1/2\ years. You can just see people bolting 
over to McDonald's to see if they're still hiring.
    Longer sentences do not reduce recidivism. But when you 
look at a city of Richmond, a $4 million cost, you can look at 
what you could do with it. The entire Statewide reentry 
program, Virginia Cares, is funded at just $2 million. So just 
for what you'd have to do in Richmond, Virginia for nothing, 
you could fund that entire program, to say nothing about summer 
jobs, college scholarships, other reentry programs, education 
and so forth.
    So as we--as the numbers of inmates increase, also the 
number of inmates returning to the community increase. During 
the last 20 years, the annual number of prisoners returning to 
our communities has increased severalfold. Currently about 
650,000 prisoners leave Federal and State prisons every year, 
and despite all our tough-on-crime rhetoric, 95 percent of the 
inmates will be released at some point. The question is how 
they leave prison and whether they will be better prepared to 
lead law-abiding lives or whether they will be in a worse 
position.
    Having a Federal record and a prison stay does not in and 
of itself help a person get a job or social development. And so 
with no limited--with no or just limited education, limited 
resources, few job skills, you've lost your family and 
community support, it shouldn't surprise anybody that two-
thirds of released prisoners are rearrested for new crimes 
within 3 years of their arrest--excuse me--3 years of their 
release. So as a society we may breathe a sigh of relief when 
the long sentence is issued.
    But that does not end our responsibilities. With the number 
of prisoner releases and reincarcerations growing 
exponentially, we can no longer afford, financially or morally, 
to allow ourselves the luxury of just tough-on-crime rhetoric, 
tough-on-crime policies, with no attention to what happens 
next. To continue to do so is unfair to unsuspecting crime 
victims, including our children. It's shortsighted, 
irresponsible, and a waste of the taxpayers' money.
    And so, Mr. Chairman, I look forward to the testimony of 
our witnesses as we look to see what we can do to seriously 
address the growing societal problem.
    And I want to commend our colleagues, the full Committee 
Ranking Member Mr. Conyers and--who is a sponsor of one of the 
reentry bills--Representatives Portman and Danny Davis for 
their legislation, and the gentlelady from Florida for her 
support. I am a cosponsor on several of those bills and look 
forward to seeing what we can do in a cost-effective manner to 
actually reduce crime. Thank you, Mr. Chairman.
    Mr. Coble. I thank the gentleman.
    It's the practice of the Subcommittee to swear in our 
witnesses, so if you all would please stand and raise your 
right hand.
    [Witnesses sworn.]
    Mr. Coble. Let the record show that each of the witnesses 
answered in the affirmative. You may be seated.
    We are pleased to recognize the gentleman from Wisconsin 
and the gentleman from Ohio with us today as well.
    Mr. Chabot. Mr. Chairman, I'd ask unanimous consent to make 
a very brief opening statement.
    Mr. Coble. Well, I usually reserve that to Mr. Scott and 
me, but since this is the last day, we'll be generous.
    Mr. Chabot. Thank you. I'll be very very brief.
    I just want to thank Congressman Portman and Congresswoman 
Harris for being here today and their leadership on this issue. 
I know Congressman Portman has been a leader both in our 
community in Cincinnati. We share adjoining districts and share 
the city of Cincinnati. He's been a leader in the area of 
community-based drug proposals to fight against the scourge of 
drugs in our community.
    And I want to also thank Congressman Conyers, as well as 
Congressman Scott, for their leadership in this area as well.
    And as we all know, millions of offenders are released back 
into communities each year, and more often than not they're not 
getting the support that they need, and this results in 
increased recidivism and it jeopardizes the safety of our 
communities. And ultimately the cost, because of recidivism, is 
very high.
    And I'm obviously one of those who believes that we need to 
be tough on crime. And I think the Members that I have 
mentioned agree with that philosophy. We can be tough on crime, 
but we can also make sure that the transition back into our 
communities is as smooth as possible, and that will protect the 
safety of our communities.
    So I want to thank these particular Members that I have 
mentioned for their leadership in this area. And I want to also 
emphasize the success and the possibilities that faith-based 
programs have. And I'm particularly pleased that Congressmen 
Portman and Harris are interested in that area. And I yield 
back the balance of my time.
    Mr. Coble. Mr. Scott, he praised you, Mr. Scott. But he 
didn't praise me. But I guess I'll overlook that.
    Mr. Chabot. We love you too, Howard.
    Mr. Coble. All right. Mr. Green, good to have you with us 
as well.
    Before I start I too want to commend Mr. Portman and Mr. 
Davis. They have been the lead players, at least on their bill, 
and this is an issue that does indeed need serious attention. 
We have four distinguished witnesses today.
    I first want to recognize Representative Rob Portman. Mr. 
Portman has been representing the Ohio Second District in 
southern Ohio for the past 10 years. He's a Member of the House 
Ways and Means Committee and the Budget Committee. Since 2002, 
Mr. Portman has served as chairman of the Republican 
leadership, acting as a liaison between leadership and the Bush 
White House. Prior to serving in Congress, Mr. Portman was a 
partner in a Cincinnati law firm and also served in the first 
Bush White House from 1989 to 1991. Mr. Portman keeps his home 
in the Cincinnati area where he lives with his wife Jane and 
their three children.
    Our second witness today is Representative Katherine 
Harris. Ms. Harris was sworn in on January 2, 2003 as the U.S. 
Representative from the 13th District in Florida. She has since 
been appointed to serve on the House Committee on Financial 
Services, Government Reform, and International Relations. Prior 
to running for Congress Ms. Harris served as Florida State 
senator and as Florida's 23rd Secretary of State. She earned 
her master's degree from Harvard University and her bachelor's 
degree from Agnes Scott college.
    Next we have Mr. Ashbel T. Wall, who is the Director of the 
Rhode Island Department of Corrections. Mr. Wall began his 
career in corrections as a probation officer in 1976. He 
subsequently served as a prosecutor in the Manhattan District 
Attorney's Office and then joined Vera Institute of Justice. In 
1987 Mr. Wall became Assistant Director in Rhode Island, prior 
to becoming Director in 2000. Mr. Wall earned his bachelor's 
degree from Yale University and his J.D. from the Yale School 
of Law.
    Our final witness today is Ms. Malika Saada Saar. Ms. Saada 
Saar is the founder and Executive Director of the Rebecca 
Project for Human Rights. She was also the founder and former 
Director of Family Rights and Dignity, a civil rights project 
for low-income and homeless families in the Bay Area of 
California. Ms. Saada Saar received her bachelor's degree from 
Brown University, her master's in education from Stanford 
University, and her J.D. From Georgetown University.
    It's good to have each of you with us. We have your written 
statements which have been examined, and I ask unanimous 
consent to submit your statements in their entirety in the 
record.
    Now, folks, we're easy dogs to hunt with around here, but 
we like to impose the 5-minute rule. Now, when you all see that 
red light illuminate in your face on the panel before you, that 
tells you that the ice is becoming ever so thin. So it will be 
time to wrap up, if you will.
    Mr. Coble. Mr. Portman, you may kick it off.

  TESTIMONY OF THE HONORABLE ROB PORTMAN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Portman. Mr. Chairman, thank you very much, and it's an 
honor to be here before your Subcommittee. Mr. Scott and Mr. 
Chabot, Mr. Coble, I appreciate not only your having us here 
today but your cosponsorship for the legislation I'll talk 
about.
    I also want to recognize my colleague and cosponsor, 
original cosponsor Danny Davis, who is on the right side of the 
stage, stage right. And I also, Mr. Chairman, if it's 
appropriate, I'd like to ask unanimous consent that Mr. Davis' 
statement be entered into the record at this time.
    Mr. Coble. Without objection, it'll be done.
    Mr. Portman. Mr. Chairman, as you all know, and your 
statement and Mr. Scott's statement made very clear, the 
numbers tell a powerful story and make a clear case for Federal 
and State innovation on this issue. Over 2 million people are 
now incarcerated in State or Federal prisons. Ninety-seven 
percent will eventually be released. This means about 650,000 
people a year are now being released from incarceration into 
our communities nationwide. These numbers also make it clear 
that reentry affects each and every one of us.
    Reentry success or failure has implications, of course, for 
public safety, as Mr. Chabot just talked about, the welfare of 
our children, family reunification, fiscal issues and community 
health. By doing a better job on offender reentry, we can 
prevent crime. We can also help restore communities and we can 
save taxpayers money.
    Unfortunately, based on the recent data from the Department 
of Justice, we now know that two-thirds of those released from 
prison will be rearrested within 3 years. And about 52 percent 
of those, by the way, go back into the prison system. The scale 
of this problem is huge and it makes a strong case for 
congressional action, as Mr. Scott said.
    Over the past year I've been working on a bill, as the 
Chairman said, with this Committee as well as many of our other 
colleagues, including Mr. Davis, to help our States and 
communities better address returning offenders.
    H.R. 4676, the legislation that I'm going to be talking 
about today, called the ``Second Chance Act of 2004'' is a 
product of actually over a year's worth of work. It's a 
bipartisan effort. It doesn't do everything, but it takes a 
very big first step in better coordinating Federal agencies and 
policies on prisoner reentry.
    It also increases support to States and community 
organizations to address the growing problems and the growing 
population of ex-offenders returning to communities.
    The basic focus, Mr. Chairman, of the bill is jobs, 
housing, substance abuse, and mental health and families. We 
make a conscious decision, a choice, in order to better target 
our resources on those issues.
    Again, I want to express my sincere thanks to you, Mr. 
Chairman, and Mr. Scott and Mr. Chabot and others, for helping 
us put this legislation together and for your critical 
cosponsorship of the bill. The only way it's going to get 
through this process is if we work together.
    First and foremost, offender reentry is about preventing 
crime and keeping our communities safe. High rates of 
recidivism do translate into thousands of new victims each 
year. The social and economic cost of a 67 percent recidivism 
rate, which is the latest data we've been able to get--that's 
the national recividism rate--is astounding. The Second Chance 
Act would make funds available to conduct studies to determine 
who is returning to prison or jail and which is of these 
prisoners presents the greatest risk to community safety.
    One of the things I've found in this area is we need better 
data, and that's one thing this legislation will provide us. 
It'll also help in the development of procedures to assist 
relevant authorities in determining when release is appropriate 
and the use of data to inform the release decision. This would 
include the use of proven assessment tools, what we consider 
best practices around the country, to assess the risk factors 
of returning inmates and use technology to advance post-release 
supervision.
    We need to be both tough and smart on crime; tough in 
keeping dangerous felons from returning and committing new 
crimes, but also smart in making sure that those who do come 
home are given the basic chance to start a new life and turn 
away from crime.
    Mr. Chabot said the main reason I got involved in this 
issue really is the link to substance abuse. It's work I've 
done over the years in drug prevention and treatment that 
really got me involved in it. The numbers here are staggering, 
too; 57 percent of Federal and 70 percent of State inmates use 
drugs regularly before prison. We've got some Bureau of Justice 
statistics that are unbelievable. The estimate of involvement 
with drugs or alcohol around the time of the offense is as high 
as 84 percent. With better treatment services for ex-offenders, 
clearly recidivism can be improved as well, and this is a 
critical part of our legislation.
    The burden on our citizens and taxpayers is also a serious 
concern. The average cost now to house a Federal inmate, as you 
know, is over $25,000 a year. State is a little bit less, about 
$21,000 a year. These figures do not include, of course, the 
cost of arrest and prosecution nor do they take into account 
the cost to victims. On the other hand, a modest expenditure to 
help transition offenders back into the community can save 
taxpayers thousands of dollars.
    I can't tell you much about this data because there isn't 
very good data out there. And maybe that's one thing we want to 
do with legislation, provide better data. But there's a 
prominent 2001 study that was done by the Washington State 
Institute for Public Policy that I'll just quote from. And it 
says the best reentry programs can expect to deliver 20 to 30 
percent reductions in recidivism or crime rates, and if 
programs can deliver reasonable program costs, even modest 
reductions in future criminality can have an attractive 
economic bottom line.
    I've got some more data on that from another study; happy 
to get into it in the Q&A. The bottom line is we all know just 
from common sense this can save a lot of money to the 
taxpayers, as well as helping our communities to be safer and 
help victims of crime.
    Beyond fiscal issues, of course, one of the significant 
costs of prisoner reentry is the impact on kids, children, and 
the weakened family ties among family members and destabilized 
communities. The number of kids with a parent in a Federal or 
State facility has gone up dramatically. As you know, it's gone 
up more than 100 percent over the past decade. It's now about 2 
million kids who have parents who are incarcerated. Now, this 
is a huge concern. These children are at risk for drug abuse 
and delinquency and they need our attention.
    The bill does make it easier for grandparents to receive 
support and services while caring for their children as a 
result of their parents being incarcerated. It also provides 
State and local governments with resources for family-based 
drug treatment to treat parents and their families as a 
complete unit.
    Our communities and States have begun to work on reentry in 
innovative ways. In Ohio we've got some innovations, I'm sure 
in your States as well, and local communities. We've begun to 
establish improved systems for reintegrating improved 
prisoners, former prisoners, in our communities. Under such 
systems, correction officials begin to plan for a prisoner's 
release while the prisoner's still incarcerated, and then they 
provide a transition in order to ensure that those services are 
available that are needed.
    Faith leaders and parishioners have played a huge role in 
this. They have a long history, of course, of helping ex-
offenders transform their lives through prison ministries and 
outreach in communities, and churches. Faith-based 
organizations have pioneered reentry services to prisoners and 
their families.
    Successful reentry protects those who might otherwise be 
crime victims. It also improves the likelihood that individuals 
released from prison can pay their fines, their fees or their 
restitution, or their family support.
    By addressing the most basic needs of ex-offenders coming 
home, Mr. Chairman, we can reduce their chances of reoffending. 
As you know, President Bush has addressed this in his own 
Second Chance Initiative. This legislation complements what 
President Bush has talked about in his State of the Union.
    Again I want to thank you for inviting me here today to 
testify before the Committee. I look forward to answering any 
questions or trying to answer any questions you may have. Thank 
you, Mr. Chairman.
    Mr. Coble. I thank the gentleman.
    [The prepared statement of Mr. Portman follows:]
            Prepared Statement of the Honorable Rob Portman
    Mr. Chairman, Ranking Member Scott, and Members of the 
Subcommittee, I am honored to testify before you today regarding 
offender reentry and child protection.
    As you know, the numbers make a clear case for federal and state 
innovation on this issue. Over two million people are incarcerated in 
federal or state prisons, and over 97 percent of these prisoners will 
eventually be released and will return to our communities. And nearly 
650,000 people are released from incarceration to communities 
nationwide each year. These numbers also make it clear that reentry 
affects each one of us. Reentry success or failure has implications for 
public safety, the welfare of children, family unification, growing 
fiscal issues, and community health. By doing a better job on offender 
reentry, we can prevent crime, prevent victimization, help restore 
communities and save the taxpayers money.
    Unfortunately, according to recent data from the Department of 
Justice, two-thirds of those released from prison will be rearrested 
within three years. The scale of this problem makes a strong case for 
Congressional action.
    I have been working on a bill with many colleagues to help our 
states and communities better address returning offenders. H.R. 4676, 
the Second Chance Act of 2004, is a bipartisan approach to this problem 
that better coordinates federal agencies and policies on prisoner 
reentry. The bill increases the support to states and community 
organizations to address the growing population of ex-offenders 
returning to communities. The main areas of focus within the bill are 
jobs, housing, substance abuse and mental health treatment, and 
strengthening families. I want to express my sincere thanks to Chairman 
Coble and Ranking Member Scott for helping to put this legislation 
together and cosponsoring the bill.
    First and foremost, offender reentry is about preventing crime and 
keeping our communities safe. High rates of recidivism translate into 
thousands of new victims each year. The social and economic costs of a 
67 percent recidivism rate nationally are astounding. The Second Chance 
Act would make funds available to conduct studies to determine who is 
returning to prison or jail and which of those prisoners represent the 
greatest risk to community safety. The bill would also help in the 
development of procedures to assist relevant authorities in determining 
when release is appropriate and the use of data to inform the release 
decision. This would include the use of proven assessment tools to 
assess the risk factors of returning inmates and the use of technology 
to advance post-release supervision.
    We need to be both tough and smart on crime. Tough in keeping 
dangerous felons from returning and committing new crimes, but also 
smart in making sure that those who are coming home are given the most 
basic chance to start a new life and turn away from crime.
    One of the reasons I became involved in this issue is the 
connection between drug addiction and our prison population. The link 
between substance abuse and the ex-offender population is important to 
address. 57 percent of federal and 70 percent of state inmates used 
drugs regularly before prison, with some estimates of involvement with 
drugs/alcohol around the time of the offense as high as 84% (BJS Trends 
in State Parole, 1990-2000). Without continued treatment services for 
ex-offenders, recidivism is likely.
    The burden on our citizens and taxpayers is also a serious concern. 
The average cost to house a federal inmate is over $25,000 a year. The 
average cost on the state level in 2000 was only slightly less--$21,170 
yearly. These figures do not include the cost of arrest and 
prosecution, nor do they take into account the cost to victims. On the 
other hand, a modest expenditure to help transition offenders back into 
the community can save taxpayers thousands of dollars. A prominent 2001 
study found that, ``the best [reentry] programs can be expected to 
deliver 20% to 30% reductions in recidivism or crime rates'' and that 
``programs that can deliver--at a reasonable program cost--even modest 
reductions in future criminality can have an attractive economic bottom 
line.''
    Beyond fiscal issues, one of the most significant costs of prisoner 
reentry is the impact on children, the weakened ties among family 
members and destabilized communities. The number of children with a 
parent in a federal or state correctional facility has increased over 
the last decade by more than 100 percent to approximately 2,000,000 
children. This is one of my biggest concerns. These children are at 
risk for drug abuse and delinquency and need our attention. The bill 
would make it easier for grandparents to receive support and services 
while caring for their grandchildren as a result of parental 
incarceration. It would also provide state and local governments with 
resources for family-based drug treatment to treat parents and their 
children as a complete family unit.
    Our communities and states have begun to work on reentry in 
innovative ways. In recent years, a number of state and local 
governments have begun to establish improved systems for reintegrating 
former prisoners. Under such systems, corrections officials begin to 
plan for a prisoner's release while the prisoner is incarcerated and 
provide a transition to needed services in the community. Faith leaders 
and parishioners have a long history helping ex-offenders transform 
their lives. Through prison ministries and outreach in communities, 
churches and faith-based organizations have pioneered re-entry services 
to prisoners and their families. Successful reentry protects those who 
might otherwise be crime victims. It also improves the likelihood that 
individuals released from prison or juvenile detention facilities can 
pay fines, fees, restitution, and family support.
    By addressing the most basic needs of ex-offenders coming home, we 
can reduce their chances of re-offending and improve their success as 
productive, contributing citizens.
    President Bush made a case for the need to address our reentering 
population in his state of the union address. He put this issue in 
perspective, ``America is the land of the second chance, and when the 
gates of the prison open, the path ahead should lead to a better 
life.'' During his address, he announced his Re-Entry Initiative, with 
a strong focus on job training, transitional housing, and prisoner 
mentoring from faith-based groups. This is an important aspect of our 
federal response to reentry. Our bill would authorize a small component 
of this plan and complements the President's larger reentry initiative. 
Together they mean a comprehensive plan to drastically change how we 
serve these men and women and keep our communities safe.
    I thank you for inviting me here today to testify before the 
Committee. It will be my pleasure to answer any questions you may have 
at the appropriate time.

    Mr. Coble. The gentlelady from Florida.

 TESTIMONY OF THE HONORABLE KATHERINE HARRIS, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF FLORIDA

    Ms. Harris. Thank you, Mr. Chairman, Chairman Coble and 
Ranking Member Scott, thank you for the opportunity to testify 
this morning regarding violent recidivism and the grave threat 
they pose to our children.
    On February 6, 2004, an 11-year-old girl was kidnapped, 
brutally raped, and murdered in my home town of Sarasota, 
Florida. The entire Nation mourned as news reports replayed the 
tape of Carlie Brucie's abduction, which a car wash 
surveillance camera had recorded. This tragedy delivered a 
crushing blow to our community. Our hearts broke over the loss 
of this precious child while we grappled with how to help her 
family and friends cope with their unfathomable grief. We also 
did so knowing that no volume of condolences can ever repair 
the chasm that has opened in their lives.
    Yet we can, and we must, insist upon swift and severe 
justice for her killer. Moreover we can, and we must, do more 
to honor Carlie's memory. We must act now to protect our 
children from criminal repeat offenders who would use society's 
second chances to commit more acts of violence.
    Following the arrest of Joseph Smith, Carlie's accused 
murderer, we learned that this man should have been behind 
bars. He possessed a long history of criminal activity, 
including a conviction for aggravated battery. He'd been 
arrested 13 times and placed on probation three times since 
1993. In fact, he was in police custody on an unrelated charge 
when he was linked to this crime.
    These facts point to a deeply troubling trend in our 
judicial system. Career criminals continue to demonstrate their 
menace to society, yet they remain free to roam our 
neighborhoods and free to prey upon our children.
    The continued exercise of judicial discretion remains 
preferable in many cases. Nevertheless, we can't afford to 
continue gambling the safety of our children on the forlorn 
hope that clearly dangerous individuals have reformed their 
behavior.
    Thus I felt a moral duty to review the laws that govern how 
the Federal justice system releases convicted criminals back 
into society. What I discovered was both shocking and 
dismaying. Currently, sections 3565 and 3583 of title 18 of the 
United States Code mandate probation and supervised release as 
the only means by which convicted criminals can be freed prior 
to completing his or her sentence. These laws specify grounds, 
four grounds, for mandatory revocation of probation or 
supervised release. Three of the four deal with drug use. The 
fourth arises from firearm possession.
    Amazingly, a Federal felon may commit violent crimes or 
sexual crimes against children and receive additional 
probation. I believe that Carlie Brucia's memory implores us to 
correct this travesty before it's too late for another child. 
Thus, May 20, I introduced H.R. 4150, entitled ``Carlie's 
Law,'' which expands the grounds for mandatory revocation of 
probation or supervised release for felons convicted in a 
Federal court.
    This legislation requires the automatic revocation of 
probation or supervised release when a Federal felon commits a 
felony crime of violence or crime of violence against any child 
under the age of 16.
    It also imposes the mandatory revocation of probation or 
supervised release when a Federal felon commits an offense 
involving or facilitating sexual contact with a child of the 
age of 16.
    Admittedly, these provisions would not have prompted the 
reincarceration of Carlie Brucia's accused murderer, but that 
fact should not prevent us from reviewing our entire system of 
probation and supervised release so that we can identify the 
clearest risk to the safety of our children.
    A recent study in 2002 by the Bureau of Justice Statistics 
measured the recidivism rate over 3 years for two-thirds of 
prisoners released in the United States in 1994. It noted that 
the commission of new crimes does not always result in new 
prison sentences. Quote, ``not all of the reconvicted prisoners 
were sentenced to another prison term for their crime. Some 
were sentenced to confinement in their local jail, some were 
sentenced to neither prison nor jail but to probation which 
allowed them to remain free in their communities but under the 
supervision of a probation officer,'' end quote.
    For the more than 270,000 convicts that this study covered, 
the average length of sentence was 5 years and the average time 
served constituted 20 months, or 35 percent. Seventy percent of 
these individuals had five or more arrests on their criminal 
record; 50 percent had at least two convictions. While 22.5 
percent were then serving a sentence for a violent crime such 
as murder or sexual assault, almost 54 percent had a prior 
record of violence.
    Of course, reconviction should not always mean 
reincarceration, particularly if the new crime is comparatively 
minor. When career criminals commit acts of violence or sexual 
abuse against a child, however, they do not belong on our 
streets and in our communities. Our children simply cannot 
afford that risk.
    So, today, let us recommit ourselves to achieving an 
America where we no longer dedicate laws to stolen young lives, 
but instead name the laws as a tribute to their promise. Thank 
you.
    Mr. Coble. I thank the gentlelady from Florida.
    [The prepared statement of Ms. Harris follows:]

          Prepared Statement of the Honorable Katherine Harris

    I wish to begin by thanking Chairman Coble and Ranking Member Scott 
for the opportunity to testify before this Subcommittee today regarding 
violent recidivists and the grave threat that they pose to our 
children.
    On February 6, 2004, an 11-year-old girl was kidnapped, brutally 
raped and murdered in my hometown of Sarasota, Florida. The entire 
nation mourned as news reports replayed the tape of Carlie Brucia's 
abduction, which a car wash surveillance camera had recorded.
    This tragedy delivered a crushing blow to our community. Our hearts 
broke over the loss of a precious child, while we grappled with how to 
help her family and friends cope with their unfathomable grief. We did 
so knowing that no volume of condolences can ever repair the chasm that 
has opened in their lives.
    Yet, we can--and we must--insist upon swift and severe justice for 
her killer. Moreover, we can--and we must--do more to honor Carlie's 
memory. We must act now to protect our children from the criminal 
repeat offenders who use society's second chances to commit more acts 
of violence.
    Following the arrest of Joseph Smith, Carlie's accused murderer, we 
learned that this man should have been behind bars. He possessed a long 
history of criminal activity, including a conviction for aggravated 
battery. He had been arrested 13 times and placed on probation three 
times since 1993. In fact, he was in police custody on an unrelated 
charge when he was linked to this crime.
    These facts point to a deeply troubling trend in our judicial 
system. Career criminals continue to demonstrate their menace to 
society, yet they remain free to roam our neighborhoods and free to 
prey upon our children.
    The continued exercise of judicial discretion remains preferable in 
many cases. Nevertheless, we cannot afford to continue gambling the 
safety of our children on the forlorn hope that clearly dangerous 
individuals have reformed their behavior.
    Thus, I felt a moral duty to review the laws that govern how the 
federal justice system releases convicted criminals back into society.
    What I discovered was both shocking and dismaying. Currently, 
Sections 3565 and 3583 of Title 18 of the United States Code mandate 
probation and supervised release as the only means by which a convicted 
criminal can be freed prior to completing his or her sentence.
    These laws specify just four grounds for the mandatory revocation 
of probation or supervised release. Three out of the four deal with 
drug use and possession. The fourth arises from firearm possession. 
Amazingly, a federal felon may commit violent crimes or sexual crimes 
against children and receive additional probation. I believe that 
Carlie Brucia's memory implores us to correct this travesty before it 
is too late for another child.
    Thus, last May 20, I introduced H.R. 4150, entitled Carlie's Law, 
which expands the grounds for the mandatory revocation of probation or 
supervised release for felons convicted in federal court. This 
legislation requires the automatic revocation of probation or 
supervised release when a federal felon commits a felony crime of 
violence or any crime of violence against a child under the age of 16. 
It also imposes the mandatory revocation of probation or supervised 
release when a federal felon commits an offense involving or 
facilitating sexual contact with a child under the age of 16.
    Admittedly, these provisions would not have prompted the re-
incarceration of Carlie Brucia's accused murderer. That fact should not 
prevent us from reviewing our entire system of probation and supervised 
release, so that we can identify the clearest risks to the safety of 
our children.
    A recent study issued in 2002 by the Bureau of Justice Statistics 
measured the recidivism rate over three years for two-thirds of the 
prisoners released in the United States in 1994. It noted that the 
commission of new crimes does not always result in new prison 
sentences:
    ``Not all of the reconvicted prisoners were sentenced to another 
prison term for their new crime. Some were sentenced to confinement in 
a local jail. Some were sentenced to neither prison nor jail but to 
probation, which allowed them to remain free in their communities but 
under the supervision of a probation officer.''
    For the more than 270,000 convicts that this study covered, the 
average length of sentence was 5 years and the average time served 
constituted 20 months, or 35 percent. 70 percent of these individuals 
had five or more arrests on their criminal record; 50 percent had at 
least two convictions. While 22.5 percent were then serving a sentence 
for a violent crime such as murder or sexual assault, almost 54 percent 
had a prior record of violence.
    Of course, re-conviction should not always mean re-incarceration, 
particularly if the new crime is comparatively minor. When career 
criminals commit acts of violence or sexually abuse a child, however, 
they do not belong on our streets and in our communities. Our children 
simply cannot afford the risk.
    So today, let us recommit ourselves to achieving an America where 
we no longer dedicate laws to stolen young lives but instead name laws 
as tribute to their promise.
    Thank you.

    Mr. Coble. The gentleman, Mr. Wall, good to have you with 
us.

          TESTIMONY OF ASHBEL T. WALL, II, DIRECTOR, 
             RHODE ISLAND DEPARTMENT OF CORRECTIONS

    Mr. Wall. Thank you, Chairman Coble and Ranking Member 
Scott, for inviting me to testify about prisoner reentry 
legislation that is pending before the Committee.
    My name is Ashbel T. Wall, the second, and I am Director of 
Corrections for the State of Rhode Island. Last year some 
17,000 prisoners were released into the community from prisons 
and jails run by my own agency.
    I am here today on behalf of the Council of State 
Governments and the Association of State Correctional 
Administrators. CSG serves all elected and appointed State 
government officials. ASCA represents the 50 corrections 
directors. We in corrections thank this Committee for its 
leadership on matters of importance to the corrections 
profession. Time and again you have demonstrated your 
willingness to incorporate recommendations and expertise of 
correctional administrators.
    I also want to thank Congressman Portman for his leadership 
on prisoner reentry. We appreciate the commitment of 
Representative Davis and Congressman Conyers as well.
    My remarks cover three main points: explaining why the 
Federal Government must assist State and local governments in 
dealing with the growing number of people released from 
incarceration; highlighting the recommendations issued by the 
Reentry Policy Council; and discussing legislation currently 
pending before the Committee.
    Experts report that next year's numbers will eclipse the 
already staggering figures on inmate releases up to this point. 
It is hard to overstate the implications of this trend for a 
number of public policy issues. There are implications for 
public safety. When policy decisions about prisoner release are 
not carefully considered and implemented, the results can be 
disastrous for protection of the public.
    There are fiscal implications. Not only are high rates of 
recidivism a threat to community safety, but almost every State 
is confronting severe fiscal problems and lacks the funds to 
sustain these rates of reincarceration.
    There are implications for children and families. Children 
of prisoners are five times as likely to be incarcerated in 
their later lives as children without an incarcerated parent.
    And there are implications for our communities. A large 
percentage of prisoners return to just a few communities that 
are already fragile, under great stress and ill equipped to 
support this population.
    Thankfully there is a basis from which Congress and the 
Federal agencies can work. The Serious Violent Offender Reentry 
Initiative, a partnership among the Departments of Justice, 
Health and Human Services, and Labor, has made available 
funding support that the States have used to develop 
innovative, promising programs in the area of prisoner reentry. 
Unfortunately, just as we have begun to get these initiatives 
past the planning stage, SVORI funding has been exhausted.
    In the absence of the legislation currently pending, the 
prospects for additional funding are extremely limited. Key 
components of our funds in my own State of Rhode Island will 
run out on June 30, 2005. This is precisely the juncture at 
which congressional action is needed.
    To assist policymakers seeking to make the transition from 
prison or jail to the community safe and successful, the 
Council of State Governments partnered with 10 key 
associations, including ASCA, to establish the Reentry Policy 
Council. The Policy Council is composed of elected officials, 
corrections and law enforcement, human services agencies and 
providers, victim advocates and representatives of faith-based 
institutions. Its comprehensive report, copies of which we have 
here today, and hundreds of detailed recommendations embody the 
bipartisan consensus achieved among this diverse group. Its 
contents cover strategies for smart decisions about release and 
community supervision, support of crime victims, safe housing, 
treatment of substance abuse and physical and mental illness, 
job training and development and strengthening of family ties. 
The report also provides numerous examples from jurisdictions 
across the country. In addition, it outlines principles that 
are essential to the success of the entire reentry effort.
    The bills introduced by Congressman Portman and Conyers are 
consistent with a great many of the Reentry Policy Council's 
recommendations. The discretionary grant programs established 
under these bills encourage comprehensive action on the complex 
needs of people released from prison and jail. They effectively 
encourage joint ventures and the engagement of community-based 
partners including faith-based institutions. They insist on 
accountability, providing focused goals for grantees. Perhaps 
most important, the guidelines and requirements are flexible, 
encouraging innovation and recognizing that there is no one-
size-fits-all solution to prisoner reentry.
    H.R. 5075 appears to take the additional step of rolling 
back many of the legal barriers that offenders face upon their 
return to the community. The council has not taken a position 
on changes to some laws, such as felony voting rights, around 
which we did not find a broad national consensus. The report 
does, however, speak to the need for Government to conduct an 
inventory of existing regulations and laws to clarify where 
barriers to reentry exist.
    H.R. 4150 addresses the Federal system and is therefore 
beyond the scope of the council's work. We now stand at an 
important crossroads. The existing system by which prisoners 
are returned to families and communities is unsafe and terribly 
cost ineffective. Initiatives begun through SVORI and the 
report of the Reentry Policy Council demonstrate that the 
system can be reengineered and reinvented. It is the role of 
Federal Government to call attention to these emerging models 
to stimulate additional innovation and to research and evaluate 
these programs and policies.
    The safety and stability of our communities and families 
and the integrity of the justice system depend on Federal 
leadership. The reentry legislation before this Committee puts 
us on that path. We on the front line badly need its enactment 
and we look forward to working with this Committee toward its 
passage. Thank you.
    Mr. Coble. Thank you, Mr. Wall.
    [The prepared statement of Mr. Wall follows:]

                Prepared Statement of Ashbel T. Wall, II

    Good morning. Thank you Chairman Coble and Ranking Member Scott for 
inviting me to testify about matters concerning prisoner re-entry and 
three bills currently pending before this committee: The Second Chance 
Act of 2004 (H.R. 4676), The Re-Entry Enhancement Act (H.R. 5075), and 
Carlie's Law (H.R. 4150).
    My name is Ashbel T. Wall, II, and I am the Director of Corrections 
for the State of Rhode Island. Our corrections system is unified, 
meaning it includes both prisons and jails. Our average daily 
population is 3,500 inmates, housed in 8 institutions. We receive about 
17,000 commitments annually; last year we released almost an equal 
number of prisoners to the community. Their length of stay varied from 
one day to over three decades of incarceration. As is true in many 
other correctional systems, I am responsible not only for institutional 
corrections, but also for the state's parole and probation services.
    I am testifying today on behalf of the Council of State Governments 
(CSG) and the (ASCA) Association of State Correctional Administrators. 
CSG is a membership association serving all elected and appointed and 
state government officials; ASCA represents the 50 state corrections 
directors and the administrators of the largest jails systems.
    On behalf of the men and women working in our nation's jails and 
prisons, I want to thank this committee's for its leadership on matters 
of particular importance to the corrections profession, such as the 
recent hearing you convened regarding the increasing number of inmates 
with mental illness and today's hearing about prisoner re-entry. On 
each of these occasions, and in connection with legislation such as the 
Prison Rape Elimination Act, you have demonstrated your commitment to 
incorporating the recommendations and expertise of corrections 
administrators, and we are extremely grateful to you for that.
    I also want to thank Congressman Portman for his leadership on 
prisoner re-entry; we appreciate very much the efforts he and his staff 
have made to incorporate ideas presented by the Re-Entry Policy Council 
into his legislation. We also are grateful to Congressman Conyers for 
his commitment to this issue.
    The purposes of my remarks today are the following: 1) to explain 
why the federal government must assist state and local governments 
grappling with the growing numbers of people released from prison and 
jail; 2) to highlight bipartisan recommendations, which policymakers 
and practitioners agree will increase public safety, issued by the Re-
Entry Policy Council; and 3) to discuss the legislation currently 
pending before the Committee.

                  1. THE CASE FOR CONGRESSIONAL ACTION

    Nationally, more than 600,000 people are released from prison each 
year,\1\ while over 7 million different individuals are released from 
jails.\2\ The number of people released from prison has increased 350 
percent over the last 20 years, and experts report that next year's 
numbers will eclipse the number of releases this year.\3\ It is hard to 
overstate the implications of this trend for public safety, state and 
local government spending, children and families, and the stability of 
communities--among other public policy issues.
---------------------------------------------------------------------------
    \1\ SVORI website, www.ojp.esdoj.gov/reentry/learn.html
    \2\ Theodore Hammett, ``Health Related Issues in Prisoner Reentry 
to the Community'' (paper presented at The Urban Institute's Reentry 
Roundtable, Washington, DC, October 2000).
    \3\ James P. Lynch and William J. Sabol, Prisoner Re-Entry in 
Perspective (Washington, DC: The Urban Institute, 2001).

        Public Safety. States and counties across the country are 
        considering changes to release policies to relieve themselves 
        of extraordinary budgetary pressure. When these policy 
        decisions are not carefully considered and implemented, the 
        results can be disastrous. In one state, for example, before 
        officials were able to establish careful, science-based parole 
        process, a governor facing severe fiscal pressure in his last 
        year in office released nearly 1,000 inmates, some of whom were 
---------------------------------------------------------------------------
        subsequently involved in high profile crimes.

        Fiscal Implications. Recidivism rates of prisoners released 
        from jail or prison are high and show little sign of 
        decreasing. Many of the people admitted to prison were under 
        supervision of the criminal justice system at the time of their 
        commitment to the corrections facility. Nearly one-half of all 
        prison admissions are probation or parole violators. At least 
        half of these violations are technical-offenses for which 
        someone could not be sentenced to prison. California alone 
        spends close to one billion dollars a year re-incarcerating 
        parole violators. Not only are such rates of recidivism a 
        threat to community safety, but states confronting especially 
        severe fiscal problems (which is now just about every state) do 
        not have the funds to sustain these rates of re-incarceration.

        Children and Families. Fifty-five percent of prisoners have 
        children under the age of 18; those kids often depend on them, 
        at least in part, for financial support, and almost always to 
        be a responsible parent.\4\ The problem is especially acute in 
        particular communities: for example, in some Brooklyn 
        neighborhoods, one out of eight parenting-age males is admitted 
        to jail or prison in single year. Lack of attention to the 
        children, spouses, and other kin of someone in prison 
        accelerates the deterioration of families in the U.S. It also 
        unwittingly raises the risk that another generation will cycle 
        in and out of prisons and jails. A recent study found that 
        children of prisoners are five times as likely to be 
        incarcerated later in their life as a child who has not had a 
        parent incarcerated.
---------------------------------------------------------------------------
    \4\ Jeremy Travis, Elizabeth Cincotta and Amy L. Solomon, Families 
Left Behind: The Hidden Costs of Incarceration and Reentry, Washington, 
DC (Urban Institute, October 2003).

        Communities. For prison and jail systems across the country, an 
        increasing percentage of prisoners hail from just a few 
        communities in the corresponding state. In my state, for 
        example, almost 25 percent of released inmates return to just 
        four zip codes in the city of Providence. Fifteen percent of 
        the neighborhoods in Baltimore receive 56 percent of the people 
        released from Maryland state prisons. In Connecticut, almost 
        half of the prison and jail population is from just a handful 
        of neighborhoods in five cities, which have the most 
        concentrated levels of poverty and nonwhite populations in the 
        state.\5\
---------------------------------------------------------------------------
    \5\ CSG, Building Bridges: From Conviction to Employment, A 
Proposal to Reinvest Corrections Savings in an Employment Initiative, 
January 2003.
---------------------------------------------------------------------------
          Communities receiving a disproportionately large share of 
        people released from prison and jail are fragile and typically 
        ill equipped to support this population: there is an absence of 
        services (such as health care and drug treatment), employment 
        opportunities, affordable housing, and supports in the 
        surrounding area.

    To address these issues, federal leadership is not only justified; 
it is essential. The Department of Bureau of Justice Statistics reports 
that expenditures on corrections alone have increased from $9 billion 
in 1982 to $60 billion in 2002. Yet, the likelihood of a former 
prisoner succeeding in the community upon his or her release is no 
better today than it was 30 years ago. By some measures, the process of 
prisoner re-entry has become much worse than it once was: In 1984, 70 
percent of parolees successfully completed their parole term. By 2002, 
that number had dropped to 45 percent.\6\ Neighborhood residents and 
families are no more prepared to support these individuals than they 
were at the time of their incarceration, and the few assets that these 
communities have available to assist them (such as faith-based 
organizations) remain effectively untapped.
---------------------------------------------------------------------------
    \6\ Lauren E. Glaze, Probation and Parole in the United States, 
2002, Department of Justice, Bureau of Justice Statistics (Washington, 
DC: 2003), NCJ 201135.
---------------------------------------------------------------------------
    Thankfully, there is a foundation from which Congress, the 
Department of Justice, and its sister agencies, can work. The Serious, 
Violent Offender Re-Entry Initiative, a grant program that represents a 
partnership among the Departments of Justice, Health and Human 
Services, and Labor, has made available valuable funding support which 
states have paired with state and local resources to develop 
innovative, promising programs and policies that address aspects of the 
issues described above. The efforts that have emerged in states like 
Rhode Island demonstrate how states can begin to reduce recidivism, 
increase safety, and strengthen families and communities.
    Unfortunately, as states just begin to get these initiatives past 
the planning stage, and as they prepare for record numbers of releases 
from prison and jail, SVORI funding has been exhausted. In the absence 
of the legislation currently pending, the prospects for additional 
federal funding are extremely limited. Authorizing language for the 
trickle of funding that continues to flow toward this issue area 
provides only a skeletal outline of what needs to be done in prisoner 
re-entry. In sum, this is precisely the juncture at which Congressional 
action is needed.

         2. THE RECOMMENDATIONS OF THE RE-ENTRY POLICY COUNCIL

    To assist policymakers seeking to make men and women's transition 
from prison or jail to the community safe and successful, the Council 
of State Governments partnered with ten key associations, including 
ASCA, to establish the Re-Entry Policy Council. The Policy Council 
comprises key state and local leaders, including workforce development 
officials; housing providers; state lawmakers; representatives of 
health, mental health, and substance abuse treatment systems; criminal 
justice and corrections policymakers and practitioners; victim 
advocates; and ministers and others working in faith-based 
institutions. The Report of the Re-Entry Policy Council reflects the 
broad, bipartisan consensus achieved among this diverse group. Like the 
Serious and Violent Offender Reentry Initiative, the work of the Policy 
Council was supported by the Departments of Justice, Health and Human 
Services, and Labor.
    The Report of the Re-Entry Policy Council identifies the programs 
and policies that are essential to realizing the goal of ensuring that 
people released from prison or jail will avoid crime and become 
productive, healthy members of families and communities:

        <bullet>  Make smart release and community supervision 
        decisions

        <bullet>  Ensure support for crime victims

        <bullet>  Offer safe places to live

        <bullet>  Break bonds of addiction

        <bullet>  Treat physical and mental illness

        <bullet>  Foster meaningful relationships

        <bullet>  Provide training, education, and jobs

    The comprehensive Report includes hundreds of detailed 
recommendations for implementing these programs and policies and 
provides examples of jurisdictions from across the country that are 
doing this work in interesting and innovative ways.
    The Report further outlines several elements which are essential to 
the success of these programs and policies:

        <bullet>  Start thinking about and working towards re-entry as 
        soon as a person is admitted to corrections facility.

        <bullet>  Partner with other government organizations and 
        nonprofits; corrections can't do it alone.

        <bullet>  Never lose sight of the communities to which people 
        will return.

    These are themes on which we have focused Rhode Island's re-entry 
efforts. The Governor has brought the relevant players together and 
we're collaborating. We have been fortunate in these efforts to receive 
technical assistance from the National Governors' Association's Center 
for Best Practices and from the National Institute of Corrections 
through its Transition from Prison to the Community Initiative. We're 
also working in partnership with community leaders in the neighborhoods 
to which the majority of our state's prisoners are returning. Local 
residents, religious leaders, and service providers have established 
the Family Life Center, a one-stop community-based organization 
dedicated exclusively to the successful re-entry of former inmates on 
the south and west sides of Providence.

              3. LEGISLATION PENDING BEFORE THE COMMITTEE

    The bills introduced by Congressmen Portman and Conyers are 
consistent with a great many of the recommendations of the Re-Entry 
Policy Council. The discretionary grant programs established under 
these bills encourage state and local governments to address 
comprehensively the complex needs, from health and housing to 
employment, of people released from prison or jail. They recognize the 
importance of planning for re-entry upon a person's admission to the 
corrections facility. And, they effectively encourage joint ventures 
among government agencies and the engagement of community-based 
partners, including faith-based institutions. They insist on 
accountability, providing focused goals for grantees. Perhaps most 
importantly, the guidelines and requirements are flexible, encouraging 
innovation and recognizing that there is no one-size-fits-all solution 
to prisoner re-entry. In the end, the design of programs and policies 
must be unique to each state.
    H.R. 5075 appears to take the additional step of rolling back many 
of the legal barriers that offenders face upon their return to the 
community. The Re-Entry Policy Council is careful not to take a 
position on changes to some laws, such as felony voting rights, around 
which there is not a broad, national consensus. It does, however, speak 
to the need for state and local governments (as well as federal 
government officials) to conduct an inventory of existing regulations 
and laws to clarify where legitimate barriers to re-entry exist. For 
example, many federal, state and local government officials remain 
unclear about what federal laws and regulations state about ex-
offenders' eligibility for publicly subsidized housing. The Portman 
bill, H.R. 4676 provides for such an inventory, and we applaud that 
appropriate first step.
    Because H.R. 4150 addresses those under federal supervised release, 
including probationers in the federal system (as opposed to state or 
local probation), the Council of State Governments and the Association 
of State Correctional Administrators have not taken a position on this 
legislation. Certainly, the concept that underlies this legislation--
immediately reincarcerating those who commit violent crimes while they 
are on conditional release--strikes me as sensible.

                             4. CONCLUSION

    With his remarks in this year's State of the Union, the President 
has called unprecedented attention to the issue of prisoner re-entry. 
Thanks to the public interest and the leadership that has emerged in 
Congress around this issue, we now stand at an important crossroads.
    The parallels between the existing situation and welfare reform in 
the mid-1990's are stunning. The existing system through which 
prisoners are returned to families and communities is unsafe, and, 
given the outcome, absurdly expensive. Initiatives in a handful of 
states, and the comprehensive, bipartisan Report of the Re-Entry Policy 
Council, demonstrate that this system can be re-engineered and 
reinvented. It is the role of the federal government to call attention 
to these emerging models, to stimulate additional innovation, and to 
research and evaluate these programs and policies. Indeed, the safety 
and stability of our communities and families, and integrity of the 
justice system, depend on such federal leadership. The re-entry 
legislation before this committee puts us on that path, and we look 
forward to working with this committee toward its passage.

    Mr. Coble. Ms. Saada Saar.

  TESTIMONY OF MALIKA SAADA SAAR, EXECUTIVE DIRECTOR, REBECCA 
                    PROJECT FOR HUMAN RIGHTS

    Ms. Saada Saar. Mr. Chairman, Members of the Committee, it 
is a privilege to be here with you today. Mr. Chairman, every 
week women are released from the D.C. Jail. Many of the women 
are released at night. They are wearing nothing but their 
prison jumpers. They are released into the night, without 
placement in a drug treatment program, without a referral to 
mental health services, without knowledge of a job or housing 
opportunity, without a bus token, and without any form of 
identification. The story of incarcerated women who are 
released without services and without community support is a 
story that can be told all over this country.
    It is critical, it is critical that in our discussions of 
reentry the voices of these women, who are mostly mothers, be 
heard. Twenty-five years ago, the presence of women, of 
mothers, was an aberration in the criminal justice system. That 
was before the war on drugs. Since the war on drugs, women have 
been increased in their incarceration by 400 percent. The 
majority of women behind bars are there for nonviolent drug 
offenses and the majority of them are suffering from untreated 
addiction. And most of these women offenders are mothers. 
Sixty-five percent of women in State prison and 58 percent of 
women in Federal prison are mothers to minor children. There 
are more than 2000 pregnant women behind bars.
    These mothers behind bars receive little or no opportunity 
to heal from the disease of addiction. The lack of treatment 
for mothers is apparent at every point in their involvement 
with the criminal justice system. Pretrial diversion, release 
services, court sentence alternatives, and reentry programs for 
women offenders are restricted in number, size, and 
effectiveness.
    Mothers behind bars and mothers reentering the community 
need treatment. They need comprehensive family-focused 
treatment so that they may heal rather than continue to go in 
and out of the criminal justice system.
    Let me explain here what I mean by family treatment. Family 
treatment is comprehensive treatment that serves the mother and 
her children, that provides individual and family therapy, 
parenting classes, and vocational training.
    Family treatment is about healing the whole family, the 
mother and her children. Family treatment is not the drive-by 
programs that only last 90 days or that force parents to make a 
selfish choice between treatment and their children. When 
parents enter into these kinds of family treatment programs, we 
know that they recover.
    Research done by SAMHSA on family treatment demonstrates 
sobriety rates of up to 60 percent. The research also 
demonstrates that recidivism goes down by 43 percent, even 
after 6 months after discharge from the treatment program. The 
problem here is that we don't have enough family treatment 
before prison, during prison, or after prison. Family treatment 
represents less than 5 percent of the overall treatment that is 
available. And we see the consequences of this every day in the 
growing number of substance abusing mothers cycling in and out 
of the criminal justice system because of untreated addiction.
    Successful reentry for mother offenders--as well as for 
other nonviolent offenders who are fathers--requires the 
expanding of family treatment services. Family treatment 
ensures lower recidivism rates, family stability, and child 
well-being. Until this continuum of services is available, 
substance-abusing mothers will remain ensnared in the criminal 
justice system and our families will continue to be 
destabilized.
    Let me conclude with a story of Lorna Hogan. Lorna is a 
mother of four children, a survivor of severe domestic and 
sexual violence, and she's a recovering addict. During her 
addiction, Lorna was arrested for a nonviolent drug felony. At 
the time of her sentencing, Lorna begged the judge for 
treatment, but her request was denied. She was placed in jail. 
Her children were put into foster care. At the end of her 
sentence, Lorna was released onto the streets. She had no idea 
where her children were. She was not given any kind of referral 
to treatment. Lorna returned to the streets and continued to 
use for another 2 years. By the grace of God she finally found 
a child welfare worker who placed her into a treatment program 
where she achieved sobriety and where she reunited with her 
children. Lorna and her children are now thriving. Lorna is a 
PTA mom. She lives in her own home. She is employed, and her 
children are excelling in school.
    What if Lorna had been placed immediately into a family 
treatment program? What if Lorna were placed in treatment 
instead of jail? What about all the other mothers who go into 
jails and prisons suffering from untreated addiction and who 
never find their way for family treatment? How much unnecessary 
suffering and criminal activity could we alleviate if family 
treatment were made available to our mothers and to our 
children? Thank you.
    Mr. Coble. Thank you, Ms. Saada Saar.
    [The prepared statement of Ms. Saada Saar follows:]

                Prepared Statement of Malika Saada Saar

    Mr. Chairman, Members of the Committee, it is a privilege to be 
here today. My name is Malika Saada Saar, I am the Executive Director 
of the Rebecca Project for Human Rights. The Rebecca Project is a 
national advocacy and policy organization for low income families 
suffering with the intersecting issues of economic marginality, 
substance abuse, access to family-based treatment, and the criminal 
justice system.
    Every week, women who have been incarcerated in the DC jail system 
are released. Many of these women are released in the night, wearing 
nothing but their blue prison jumpers. They are released into the night 
without placement in a drug treatment program, without a referral to 
mental health services, without knowledge of a job or housing 
opportunity, without a bus token, and without any identification. The 
story of incarcerated women who are released without services and 
community supports is a story that can be extended out to women's jails 
and prisons beyond Washington, DC.
    It is critical that in our discussions of reentry, the voices of 
these women--who are mostly mothers--be heard.
    Twenty-five years ago, the presence of women--especially mothers--
was an aberration in the criminal justice system. However, following 
the introduction of mandatory sentencing to the federal drug laws in 
the mid 1980s, the number of women in prison has risen 400%.\1\ The 
percentage of females incarcerated for drug offenses now surpasses that 
of males.
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics., U.S.Dep't of Justice, ncj 
175688, Women Offenders 1(Lawrence A. Greenfield&Tracy L. Snell 
eds.,1999)
---------------------------------------------------------------------------
    And most of these women are mothers:

        <bullet>  In State prison, 65.3 percent of incarcerated women 
        are mothers to minor children.\2\
---------------------------------------------------------------------------
    \2\ BUREAU OF JUSTICE STAT., U.S. DEP'T OF JUSTICE, SOURCEBOOK OF 
CRIMINAL JUSTICE STAT. 1998, at 488.

        <bullet>  In Federal prison, 58.8 percent of the imprisoned 
        women are mothers to minor children.\3\
---------------------------------------------------------------------------
    \3\ Id.

        <bullet>  Many women enter jails and prisons pregnant. In 1997-
        98, more than 2,200 pregnant women were imprisoned and more 
        than 1,300 babies were born in prisons.\4\
---------------------------------------------------------------------------
    \4\ Inmate Health Care, Part II, Corrections Compendium, 23, 11 
(1998). The number is based on information provided by 35 state 
correctional systems and the Federal Bureau of Prisons, some of which 
provided only approximate data. The other states did not respond to the 
survey at all or did not have information about pregnancies and 
births..

    The most recent statistics indicate that drugs are responsible for 
the incarceration of 34 percent of state prisoners who are female and 
72 percent of federal female prisoners.\5\ Indeed, drug related 
offenses accounted for 65 percent of the increase in the female prison 
population between 1996 and 1999.\6\
---------------------------------------------------------------------------
    \5\ Bureau of Justice Statistics., U.S.Dep't of Justice, ncj 
175688, Women Offenders 1(Lawrence A. Greenfield&Tracy L. Snell 
eds.,1999) at 7.
    \6\ Women in Prison, BJS, (1994).
---------------------------------------------------------------------------
    When mothers are placed behind bars for untreated addiction, their 
children are either placed in foster care or kinship care. During the 
period of incarceration, it is a struggle for incarcerated mothers to 
maintain an abiding connection to their children. Women's prisons are 
often located in rural areas far from the cities in which the majority 
of inmates lived, making it difficult to maintain contact with their 
children and jeopardizing the prospects of successful reunification. A 
national study found that more than half of the children of women 
prisoners did not visit their mothers while they were in prison. Over 
60 percent of the children who did not visit lived more than 100 miles 
from the prison where their mothers were incarcerated.\7\ Incarcerated 
mothers with children in foster care are often unable to meet court-
mandated family reunification requirements for contact and visitation 
with their children, and consequently lose their parental rights.
---------------------------------------------------------------------------
    \7\ Id.
---------------------------------------------------------------------------
    When these mothers are in prison, they receive little or no 
opportunity for healing from the disease of addiction. Effective 
programs for both male and female offenders are limited, but programs 
explicitly designed and implemented for women are nearly non-existent. 
Despite the growing numbers of female inmates, Morash and Byrnum found 
in a nationwide study that few services addressed women's distinct 
needs and experiences. Especially lacking were services for mothers and 
pregnant women.\8\ The treatment programs that existed lacked 
comprehensiveness, and so counselors did not focus on the women's 
histories of physical and sexual victimization that led to their drug 
abuse.\9\
---------------------------------------------------------------------------
    \8\ See generally, Merry Morash et al., Findings from the National 
Study of Innovative and Promising Programs for Women Offenders 40-46 
(Dec.1995).
    \9\ Leslie Acoca, Natl. Council on Crime and Delinq. The Robert 
Wood Johnson Foundation, Barriers to the Adoption of Harm Reducing 
Gender-Specific Substance Abuseand Parenting Programs for Incarcerated 
Mother, spring 2000.
---------------------------------------------------------------------------
    In its 1999 five-state study of the barriers to the provision of 
effective substance abuse and parenting services to women in prisons 
and jails, National Council on Crime and Delinquency (NCCD) identified 
several core unmet needs.\10\ The women in the focus groups regarded 
the paucity of substance abuse services as a fundamental problem. They 
expressed a desire for more intensive and accessible programs. Many 
complained of long waiting lists, and said that the available services 
were administered by counselors who acted abusively and lacked adequate 
training.\11\ None of the women reported on the availability of 
programs that addressed drug addiction and co-occurring mental health 
disorders.\12\
---------------------------------------------------------------------------
    \10\ Id. at 7.
    \11\ Id.
    \12\ Id at 9.
---------------------------------------------------------------------------
    The dearth of adequate services for women offenders is not limited 
to incarceration settings, but impacts women at every point in their 
involvement with the criminal justice system. Pre-trial diversion and 
release services, court-sentenced alternatives and re-entry programs 
for women offenders are restricted in number, size, and effectiveness. 
A NCCD survey of promising community-based programs providing 
supervision and treatment services for women offenders revealed the 
extent of the problem.\13\ A broad national survey of effective women-
specific community corrections programs revealed that only 111 
qualified as meeting the study criteria for offering community programs 
for female inmates.\14\
---------------------------------------------------------------------------
    \13\ Id.
    \14\ Id. at 8-9.
---------------------------------------------------------------------------
    Mothers behind bars and mothers reentering the community must be 
afforded access to treatment in order to give families the opportunity 
to heal together from the disease of addiction. Unfortunately, families 
struggling with substance abuse issues are offered few opportunities to 
find treatment that is family focused, where they and their children 
may receive comprehensive services together. The Uniform Facility Data 
Set found that only 6 percent of the treatment programs surveyed 
included prenatal care and 11.5 percent provided childcare. Only 37 
percent of mothers in need of drug treatment who are mothering children 
under the age of eighteen receive any kind of treatment services.
    While family-based treatment represents a small percentage of the 
overall treatment available, family treatment programs enjoy 
consistently high levels of success. In 2001, the Center for Substance 
Abuse Treatment (CSAT) evaluated its Pregnant and Postpartum Women and 
Their Infants Program, which provides comprehensive, family-based 
treatment for substance abusing mothers and their children. Major 
findings of this study, at 6 months post treatment, include:

        <bullet>  60% of the mothers remained alcohol and drug-free.

        <bullet>  Drug-related offenses declined from 28% to 7%.

        <bullet>  38% obtained employment and 21% enrolled in 
        educational/vocational training.

        <bullet>  75% of the mothers had physical custody of one or 
        more children.

    In 2003 an additional cross-site evaluation of 24 residential 
family-based treatment programs 6 months after post-treatment revealed 
successful outcomes for mothers and their children:

        <bullet>  60% of the mothers remained completely clean and 
        sober 6 months after discharge.

        <bullet>  Criminal arrests declined by 43%.

        <bullet>  44% of the children were returned from foster care.

        <bullet>  88% of the children treated in the programs with 
        their mothers remained stabilized, 6 months after discharge.

        <bullet>  Employment rose from 7% before treatment to 37% post-
        treatment.

        <bullet>  Enrollment in educational and vocational training 
        increased from 2% prior to treatment to 19% post-treatment.

    Evaluation studies at the state level of family treatment programs 
demonstrate similar findings of successful outcomes. For example, 
Center Point's LifeLink Treatment Program for Women and Children, a 
therapeutic communities treatment program in San Rafael, California 
offers comprehensive services for mothers with children. LifeLink is a 
model 40 bed residential program for substance abusing mothers and 
their minor children. A 2000 evaluation of 160 women and their 378 
children who completed the program found the following:

        <bullet>  70% of the mothers were employed after completion of 
        the program

        <bullet>  Involvement in the criminal justice system declined 
        from 67% to 33% of mothers reporting no further involvement in 
        the criminal justice system.\15\
---------------------------------------------------------------------------
    \15\ Center Point LifeLink Evaluation, (2000).

    The Women's Recovery Program of Gateway Community Services in 
Jacksonville, Florida, offers comprehensive residential family-based 
treatment programs. A 1997 study of 467 women and their 1,374 children 
---------------------------------------------------------------------------
who completed the program found the following:

        <bullet>  72% of mothers reported alcohol and drug abstinence 
        at one-year post discharge

        <bullet>  64% of mothers attained education necessary for 
        employment

        <bullet>  52% of mothers were employed at one-year post 
        discharge

        <bullet>  92% of mothers reported no further involvement in the 
        criminal justice system

        <bullet>  36% of the children who were not with their mothers 
        prior to treatment were reunified with their mothers post-
        treatment.\16\
---------------------------------------------------------------------------
    \16\ Gateway Community Services, Program materials (1997).

    Successful reentry for mother offenders--as well as for non-violent 
offenders who are fathers--requires the expanded capacity of family-
based treatment services. Until a continuum of family based treatment 
services is available, substance abusing mothers will remain ensnared 
in the criminal justice system and families will continue to be 
destabilized. Family-based treatment ensures lower recidivism rates, 
family stability, and child well-being.
    Indeed, family treatment as a reentry policy must also be extended 
out to a no-entry policy. Most parents convicted of non-violent drug 
felonies who are suffering from the disease of addiction should be 
placed in comprehensive treatment programs, and not correctional 
facilities. Treatment alternatives to incarceration for mothers, as 
well as fathers, suffering with untreated addiction should be pursued 
in order for families to heal together.

    Mr. Coble. Now, we impose the 5-minute rule against 
ourselves as well, so if you all could keep your answers fairly 
brief.
    Mr. Wall, you view Federal involvement in this area as 
critical even for State criminal offenders who are being 
released. Will Federal legislation and appropriate programs 
actually save money in the long run, A; and B, how can we 
ensure that Federal funding will not result in a corresponding 
decrease in State funding in this area?
    Mr. Wall. Mr. Chair, first with respect to whether--I 
believe your first portion of your question was whether Federal 
funding was going to make a difference.
    Mr. Coble. It could perhaps be a savings, even a savings.
    Mr. Wall. I'm sorry?
    Mr. Coble. Even a savings of money. Yeah, will it make a 
difference?
    Mr. Wall. I've been in corrections for 28 years, and I am 
convinced that it will. The fact of the matter is that 
recidivism and the recycling and churning of offenders back 
through the corrections system is extraordinarily expensive. 
When you consider the numbers that we have spoken about, and in 
my own State, one-third of all released inmates are returned on 
new sentences to prison within 12 months, you realize just what 
the cost will be.
    Now, clearly, there are some offenders who are committed to 
a criminal lifestyle. They will go out and they will reoffend 
again. But I think that when one-third return within 12 months, 
that speaks to the failure of adequate preparation for release 
and good supervision.
    Mr. Coble. What do you say, Mr. Wall, about the possible 
corresponding decrease in State funding?
    Mr. Wall. I can't imagine it happening. The reason, of 
course, is that corrections expenditures on institutions are 
100 percent State dollars. Corrections is basically a State 
function. And increasing percentages of our budgets are--of our 
States' budgets are being devoted to bricks and mortar and 
officers and locks and fences. That will always be the case. 
There simply isn't money left over for the kind of work that 
the Federal Government can support through reentry.
    Mr. Coble. I thank you, sir.
    Ms. Harris, have you heard from groups or individuals who 
oppose the revocation of parole provisions in your bill?
    Ms. Harris. Originally when we first spoke of it, we heard 
of some concerns via the Internet and others, just as a 
reaction to some extent that they were concerned it was a knee-
jerk reaction. But as they further engaged and we had the 
opportunity to delve further looking at revocation, mandatory 
revocation of probation, certainly as it now involves firearm 
possession or as it it's related to drugs, the understanding is 
that where it will relate to children it's extremely important 
to close that gap as well.
    Mr. Coble. Mr. Portman, yours and Mr. Davis's bill, does it 
create new Federal grant programs to assist States with 
prisoner reentry programs and/or does it amend or expand on 
already existing Government programs?
    Mr. Portman. Mr. Chairman, as you know, it primarily 
reauthorizes existing programs and that's the Reentry 
Demonstration Grant Program that Mr. Wall talked about earlier. 
It does, though, also create a new mentoring program for adult 
and juvenile offenders and it also establishes a small pool of 
funds for State research, which I said earlier I think is 
critical to get better data.
    The bill also authorizes the Federal Resource Center for 
Children of Prisoners, which has received Federal funding in 
the past, by the way, but has never been authorized. So you 
know, most of it is existing programs, reauthorizing them, 
improving those programs, as we talked about earlier. Some 
small new programs, including the mentoring program and the 
Center for Children of Prisoners Program has been receiving 
funding without authorization.
    Mr. Chairman, I think this Federal role, further responding 
to your question to Mr. Wall, is critical for a very important 
reason; and that is we can bring best practices from around the 
country to the States. I agree with Mr. Wall, and I thank him 
for his great work and the Reentry Policy Council's work, that 
the States are eager to get into this issue even more. I don't 
think the States are going to pull back as they see a great 
benefit in terms of reduction of crime and dealing with the 
taxpayer issues.
    But we can help at the Federal level to encourage 
innovation in reentry, establish standards of performance 
around the country and the standards of performance, you know, 
will be based on, again, best practices, and be able to 
disseminate to those communities simply what works and what 
doesn't work. I think the Federal Government has a big role to 
play here.
    Mr. Coble. I thank you, sir.
    Ms. Saada Saar, let me beat the red light with you. Do you, 
Ms. Saada Saar, see a role for faith-based organizations in 
assisting prisoners reentering into society?
    Ms. Saada Saar. There is absolutely a role for the faith-
based community, and we also have to give honor to the role 
that they have played over these years. What is absolutely 
critical, though, when we talk about family-based treatment is 
that we make sure any faith-based organization that does 
family-based treatment knows how to do it, is providing 
comprehensive services to mothers and to their children, to the 
family as a whole. But absolutely, as long as they are 
comprehensive, as long as they are licensed to care for our 
children, they absolutely have a role in the struggle.
    Mr. Coble. I thank you. My time has expired. Gentleman from 
Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    As I suggested in my remarks, we've got choices we can 
make. And just doing a little back-of-the-envelope arithmetic, 
if you've got 2 million prisoners and increased incarceration 
10 percent at $30,000 a year, you're talking about $6 billion. 
Now, Mr. Wall, you've been in corrections 28 years.
    Mr. Wall. Yes, sir.
    Mr. Scott. If you threaten someone, if you put a sign up 
that the punishment might go up from 5 years to 5\1/2\ years, 
would that have any impact on crime?
    Mr. Wall. In my experience, crime is the product of a 
complex web of factors and the population that is incarcerated 
does not necessarily make rational choices about the punishment 
associated with the offense.
    Mr. Scott. And so it would have negligible effect? 
Lengthening the--I've seen studies that said just lengthening 
the time that someone is in jail, say, from 5 years to 5\1/2\ 
years, would not have any effect on recidivism.
    Mr. Wall. There are studies that have focused on that area 
and come to a variety of conclusions. To the best of my 
knowledge, Representative Scott, as you know, there's quite a 
bit of controversy about the effect of the higher incarceration 
rates on the crime rate across the country, some arguing that 
it has made a profound difference and some saying that it 
hasn't.
    My interest in reentry, of course, is the fact that 
whatever the debate at the front end may be, you don't have to 
like it. You don't have to agree with it. But you have to 
accept that sooner or later virtually everybody is going to be 
released and the rubber meets the road for public safety in the 
community.
    Mr. Scott. Well, I mean we have choices. If you had $6 
billion on the table, would you want to increase punishment 
from 5 years to 5\1/2\, or would you want to invest it in 
reentry programs?
    Mr. Wall. My own belief is that reentry is an investment 
that will yield long-term savings in money and produce 
healthier, safer communities.
    Mr. Scott. Okay. Mr. Portman, one of the problems that we 
have on your approach is that it appears to be soft on crime. 
Now--because it's not mean on inmates. Now, on the education 
programs, is there any evidence that if you have an education 
program, that the recidivism rate will go down and therefore 
fewer victims will have to suffer crime?
    Mr. Portman. Absolutely. And I talked earlier about some 
States that are doing innovative work in that, talking about 
release before the prisoner's release, working with the 
prisoner, working with the community, being sure that the 
training or education that a prisoner is receiving in the 
system is actually relevant to what's available in the 
community, working with faith-based organizations, also working 
with private employers so that when someone is released there's 
a possibility of taking that education and applying it to 
something that's meaningful and can help that person make the 
transition.
    Mr. Scott. And the reduction in crime is so much that the 
program probably pays for itself.
    Mr. Portman. Well, as I said earlier, I'm frustrated by the 
data, and I know you are too, because we don't have the kind of 
data that we should have.
    But let me just give you one study that I mentioned 
briefly. It's Allen County, Indiana. They did an intensive 
reentry program which they found reduced recidivism and reduced 
cost to the community. Their cost was about $635,000 per year 
over a 2-year period. They said that their cost/benefit is 
$1.95 million over the 2 years of the study. But they also 
found out that the local community saw a reduction criminal 
cost of $4.9 million during that same period of time.
    Now what does this mean? You could say it's $635,000 bucks 
a year and the benefit of 2 years. That might be a bit much. 
But the fact is the cost/benefit analysis here is very clear. I 
think you're absolutely right.
    Mr. Scott. And certainly you would reduce crime a lot more 
with that investment than merely increasing incarceration.
    Mr. Portman. Well, yeah. I mean, you are someone who's 
spent a lot of time on this over the years. And incarceration 
is important. I mean there are lots of reasons for 
incarceration.
    Mr. Scott. Let me say this. We're not talking about 
reducing incarceration. If you're going to put $6 billion into 
the crime--the fight against crime, where should the money go? 
Should it go in something that would be cost effective, 
probably save more than its cost and reduce crime, or down a 
rat hole increasing the incarceration where it probably 
wouldn't make any difference at all?
    Now, one is soft on crime and one is tough on crime. And 
the studies that you've suggested, I mean, we've got--most of 
the studies we do on crime are polls: How does the slogan test 
in terms of our reelection? If it rhymes, it's a much better 
program.
    Mr. Portman. It has to fit on a bumper sticker too.
    Mr. Scott. If it fits on a bumper sticker, it's a better 
program. Those are the kind of studies we usually have. What 
kind of study are you talking about?
    Mr. Portman. Well, I'm talking about what your question 
implies, which is that there are ways we could take relatively 
limited Federal resources and apply them at the State level and 
in the Federal system to reduce crime by reducing recidivism 
and getting at the fundamental problem.
    I will say also, Mr. Scott, as you know, we've got a lot of 
groups who normally don't work together working on this issue. 
And you have helped bring some of these groups together. We've 
got the American Bar Association and the Family Research 
Council and the Children's Defense Fund working together on 
this issue. We also have the National Urban League taking a 
prominent role in this as well as the Prison Fellowship Group, 
which is a great faith-based group, the Salvation Army and the 
Conference of Mayors. So there is a recognition I believe out 
there, as I said earlier, among our States and local 
communities that this is a problem that needs to be addressed, 
and they're looking for our help.
    Mr. Scott. Thank you.
    Mr. Coble. We'll have another round since it's just the 
Ranking Member and I here.
    I have expressed this in previous hearings and it does 
relate to the issue before us, and that is overcrowding. I 
think prison overcrowding conditions, particularly in State 
institutions, is a bomb ready to explode. And I think that 
needs obvious addressing, and of course, as I say, this can 
indirectly apply to that as well.
    Mr. Wall, let me ask you this, and this is a subjective 
question perhaps. But how do you successfully balance the need 
for reentry reform on the one hand with the need to protect 
citizens from dangerous ex-offenders on the other?
    Mr. Wall. Mr. Chair, as I had mentioned earlier, the 
reality of incarceration is that with almost no exception, 
everybody is released. Everybody is released. Whether they have 
had treatment in prison or not, whether they are dangerous or 
not, eventually they get out. And it is our job, if we really 
care about public safety, to structure that release so that it 
can be as effective as possible and as safe as possible.
    The fact is that there needs to be a balance between the 
kinds of supports and services which we know will assist 
somebody in reintegrating into the community and also 
thoughtful effective supervision for those who require close 
monitoring.
    Mr. Coble. I thank you. We have been joined by the 
gentlelady from Texas, Ms. Jackson Lee. Good to have you with 
us, Ms. Jackson Lee.
    Gentleman from Virginia.
    Mr. Scott. Thank you.
    Ms. Saada Saar, you mentioned parents in prison. I've seen 
studies that show a substantial number of children who have 
parents in prison end up in prison themselves. What can be done 
to sever that trend?
    Ms. Saada Saar. I want to talk about how family treatment 
can really break the cycle that we see. We know that when 
mothers are substance abusing and they are the primary 
caretakers of the children, we know that those children are 
more vulnerable to the cradle-to-prison pipeline.
    There's a psychiatrist that was interviewed for the 
Children's Defense Fund study on the cradle-to-prison pipeline, 
and he said, if you show me a mother who's substance abusing, I 
can guarantee you that that child will wind up in the criminal 
justice system.
    If we create and expand family treatment so that that 
mother who is substance abusing and her child can go into 
treatment and achieve healing, then we know we've broken the 
cycle. We know that child is no longer in the pipeline to 
prison.
    Many of the mothers who are in family treatment across the 
country talk about how not only were they able to change their 
lives, not only were they able to achieve transformation, but 
that they see their children are in a very different place 
because of treatment. Their children are not picking up drugs, 
because they see the consequences of addiction on their 
parents. And those children have had the chance to deal with 
the impact of their parents' addiction so that their own 
suffering stops, so that they can live a different life.
    But, again, we have to do this correctly. Doing drive-by 
treatment programs that are 90 days for our parents, that 
doesn't work. Not having any kind of after-care treatment for 
our parents when they're coming out of prison does not work. We 
have to do it right by doing comprehensive family treatment, 
not just for the parent coming out of prison, but we can stop 
this so that we don't see our mothers going into prison, our 
children going into the foster care system. And if we do it 
before the families go into the prison, we know we can stop the 
cycle of the children going into that pipeline to prison.
    Mr. Scott. Thank you.
    Representative Portman, are you familiar with the Prison 
Industry Program? Does that reduce crime?
    Mr. Portman. I think it does, Mr. Scott; again, which we 
talked about earlier, by providing training in certain 
industries. But maybe as important with most of these 
industries is to provide a way for prisoners to use their time 
more productively while incarcerated.
    Mr. Scott. And in the end, reduces crime.
    Mr. Portman. In the end, allows people to reenter more 
successfully.
    Mr. Scott, could I briefly touch on the children's issue 
you mentioned, because I think it's critical, and as I said 
earlier, this legislation doesn't do everything but it does 
focus on children, for the simple reason Mrs. Saada Saar talked 
about. It does in a number of ways. It helps Health and Human 
Services do more in terms of the developing regs that helps 
address family preservation. It also allows family members to 
be more involved in the reentry process than they are not now.
    In other words, the funds would be used that would be an 
allowable source of the funds for State and local as well as 
the mentoring program we talked about.
    It also fosters the creation or development of prisoner and 
family policies that help prisoners reconnect with their 
families while they're in prison.
    And then finally with--regarding being sure that when they 
are out of prison, in treatment, that it's a family program. 
And this family-based treatment program is controversial. I 
will tell you, some people think you ought to be separated from 
your family while you're being treated. But the recent data 
indicates it's more successful if you can reenter with your 
family and do it in a more holistic way. It's a win-win, and 
the parents aren't separated from their kids, and they're more 
encouraged to meet their obligations as parents.
    So I mean, this is an important part of the legislation 
that Mr. Davis and I are talking about.
    [10:05 a.m.]
    Mr. Scott. Let me ask a question about the faith-based 
initiative. Are there constitutional problems with directly 
funding faith-based organizations, and how can you pick which 
faith will get funded.
    Mr. Portman. The way we decided to go, there has been a lot 
of discussion on this, as you know. Only States and local 
governments would be eligible for the demonstration program, so 
we don't change that. The community-based organizations or 
nonprofits can apply for the new funds, and that would be 
through the Department of Labor. Faith-based groups like 
Catholic Charities, Volunteers of America have been involved in 
reentry and very successful.
    Mr. Scott. Would this bill allow discrimination in 
employment with Federal money?
    Mr. Portman. We stayed away from that issue. We are not 
including charitable choice language in the legislation. We 
were not able to get a consensus on that. As important as those 
questions are, I know your Committee has been struggling with 
them, it says that faith-based entities can receive funding 
just as other organizations can. And I will say the legislation 
is supported by a number of faith-based organizations including 
Salvation Army, National Black Church Task Force and others.
    Mr. Coble. I thank the gentleman.
    The gentlewoman from Texas Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman very much.
    I can't reinforce enough the crucialness of this hearing, 
and I thank the Chairman and the Ranking Member for the 
interest. If we come back in a lame duck session, I hope that 
we will be able to continue this and maybe even before the 
complete end of this session have some legislation passed. Many 
of us have variations of this legislation, and I think it is 
important to bring some resolution to it primarily because we 
see we are, one, both overcrowded in our Federal system, but 
certainly we are overcrowded in our State system, and we are 
overburdened by our lack of response to those reentering or 
seeking to work with their families.
    Let me thank the panelists. I want to say a few words and 
ask a question. At the same time, I would like to have 
submitted into the record H.R. 3575. I ask unanimous consent to 
submit into the record H.R. 3575, ``Federal Prison Bureau 
Nonviolent Offender Relief Act of 2003 and 2004.''
    Mr. Coble. Without objection, it will be received.
    [The bill, H.R. 3575, follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Jackson Lee. Both Texas--well Texas, a State that I 
come from, experimented with two sides of the coin, and that 
was in the 1990's, late 1980's, overbuilt or built prisons. 
That was their solution to crime, and we could find a prison on 
every corner. We find ourselves--and then of course, with our 
own sentencing guidelines, sometimes overcrowded to the point 
where they had to release persons. It is a different system 
than the Federal Government. But releasing them to what? How do 
you strengthen families, help to collaborate, get people where 
they need to be?
    Many of you may know the name Whitney Phipps, who has a 
program where he has documented the fact that the children of 
the incarcerated wind up in the same cycle, so we are doing 
something wrong. And he has the Dream Program that interfaces 
children with computers and works with the families.
    I have a program--not a program, but a thought that we are 
not doing anything to keep nonviolent offenders incarcerated 
under mandatory Federal sentencing, and I believe that that is 
one side of the coin that we have to look on is that we are 
warehousing individuals, and are they really functioning; are 
they being rehabilitated.
    Let me say, if I could ask Mr. Portman, Mr. Wall and Ms. 
Saada Saar, clearly, let's talk about cost. And, Congressman, 
forgive me, do we have any documentation on how much we would 
save in our criminal justice system if we invested in programs 
on your legislative--and you may have said this--your 
legislative aspect, if you would do that?
    And both--Mr. Wall, you are a correction person. Your 
responsibility is to incarcerate, but in your movement through 
the criminal justice system and population, what would you see 
the definitive cost-benefit--what could you do better in your 
prison if you didn't have excess persons or recycled persons?
    And again to Ms. Saada Saar, which I think is an important 
movement, let me congratulate you, on women, the kind of 
investment, success we would have if we invested in women who 
will invest in their children.
    There are faith-based persons in the room. I recognize the 
United Methodist Church, and I think there are great ways of 
avoiding the discriminatory aspects of we may consider very 
crucial, very great ways of encouraging and increasing the 
church, parish, synagogue, et cetera. They have already been 
partners in many instances in prison ministries. So I think 
this is an excellent way to do this without some of the 
concerns we have earlier expressed.
    I yield to Mr. Portman on that question.
    Mr. Portman. Thank you, Ms. Jackson Lee. It is a tough 
question, we talked about it earlier, because the data is not 
out there. One of my frustrations is we have been looking into 
this, working with you all in the last year to put through the 
legislation. We don't have the data we need. That is why in the 
legislation we provide for Federal funding to do better 
research on the entire issue of reentry.
    But in particular, this issue of what is the cost-benefit, 
I did, in response to Mr. Scott's earlier question, list one 
example in Indiana where we have some pretty good data there 
showing that they had an aggressive reentry program over 2 
years. They believed it saved them considerable amounts, 
$635,000 cost, benefit of up to 6 million, depending on how you 
add the cost of the study.
    Let me go back to Texas. You are familiar with this 
program, I know. The Texas project, the Reintegration of 
Offenders Program, found that 69 percent of their participants 
found employment rather than the 36 percent of a controlled 
group; it also found that after release, 23 percent of 
participants returned to prisons versus 38 percent. That 
evaluation concluded that by reducing recidivism and 
reincarceration, RIO saved the State $15 million. That is more 
than the entire $8 million annual budget.
    We have good data from around the country and we are trying 
to pull that together as best we can. Your data from Texas is 
one example. The Indiana data is another. We have some 
information from Washington State that is helpful in this 
category.
    It is common sense when you think about it. You talk about 
the costs over $25,000 per year of incarcerating someone. We 
talked about if you could even reduce that by 5, 10, 15, 20 
percent--Mr. Scott had some back-of-the-envelope calculations 
on that, what kind of costs you save. The savings to society in 
terms of reduction of crime could be enormous.
    Ms. Jackson Lee. Mr. Wall.
    Mr. Wall. Representative Jackson Lee, I have experienced a 
severe overcrowding in our system during the course of my 
career, overcrowding so severe that the Federal Court 
interceded and ordered the release of both awaiting trial and 
sentenced inmates prior to the terms in which they might 
otherwise have been discharged. And I can speak from experience 
and say that when there are large number of inmates in 
institutions that weren't designed to hold them, it strains 
every aspect, and the priority becomes the maintenance of 
order.
    It is very difficult to conduct meaningful programming in 
that kind of setting, and I have been distressed that over the 
years we paid insufficient attention to the fact that one of 
the reasons our institutions have so many inmates is because of 
this churning repeat cycle of people who are released and 
return within short order. And I firmly believe, and I am sure 
I speak for my colleagues, that if we had the ability to 
adequately prepare people for release and to sustain those 
supports and provide good supervision after they are out, we 
would then have fewer numbers returning and could do an even 
better job with the ones that are incarcerated.
    Ms. Jackson Lee. Thank you very much.
    Mr. Chairman, if you would, ask unanimous consent for 
additional time for her to respond.
    Mr. Coble. And we will recognize the Ranking Member of the 
full Committee.
    Ms. Saada Saar.
    Ms. Saada Saar. A few numbers to put out there in looking 
at a cost-benefit analysis. It is 17,000 a year to treat a 
mother and her children. It is 17,000 a year to do family 
treatment. It is 39,000 a year to incarcerate a mother. We need 
even better research than that, because we don't know how to 
look at the costs of putting our children into the child 
welfare system as a result of a parent's incarceration. We have 
not talked about the costs of a child going into juvenile hall 
as a result of a mother substance abusing and not receiving 
treatment. So I already will present the idea of 17,000 for 
treatment versus 39,000 for incarceration. But we need to do 
better in terms of looking at the costs to the entire family 
when we do cost-benefit analysis research.
    Ms. Jackson Lee. I thank the witnesses.
    Just on the record, Mr. Chairman, just this sentence on the 
record. One of our death row inmates who committed a crime as a 
teenager, mother was a crack addict and father was murdered, he 
ultimately murdered and sitting on death row and been sitting 
there for 17 years. It was a perfect example of what I think 
you are talking about and what an amazing cost to society that 
that family presented. I hope, Mr. Chairman, we can move on 
that legislation particularly dealing with the good Federal 
Prison Nonviolent Offender Relief Act, which I hope to discuss 
with this Committee.
    Mr. Coble. Thank the gentlelady.
    The Chair now recognizes the Ranking Member of the full 
Judiciary Committee, the gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, and good morning, Mr. Chairman. I 
welcome the witnesses here.
    First a cause for celebration. We are all looking at 
reentry and recidivist problems together. I want to thank 
Chairman Coble for that. The only problem is that the Ds are 
working on their bills, and the Rs are working on theirs, and 
my goal is to get us together so we are all looking at the same 
thing. There are two bills out here, and this is a very good 
beginning.
    First of all, I congratulate you for picking up a matter 
that some of us have been working on. I know the Ranking Member 
of this Subcommittee and the gentlelady from Texas have been on 
this prison reentry problem for many years, because the 
Congressional Black Caucus has been dealing with this in 
workshops over the years. And so what we are doing now is 
looking at both pieces of legislation. I think it is fair to 
say that neither of these are going to be reported very far 
before the end of the 108th session. And so, this gives us a 
chance with our minority witness who is here and us to review 
some of the things that I think we could come to some agreement 
on.
    Mr. Coble. Would the gentleman yield just a moment? You, in 
effect are tracking what I said at the outset. I said this will 
go nowhere legislatively this session, but I think this may 
provide a springboard to maybe get a jump start, and I 
appreciate you yielding.
    Mr. Conyers. And then I wanted to ask Ms. Harris, who I am 
happy to see working on this subject, about Carlie's Law, H.R. 
4150, because it figures into this, too, and I would assume 
that you are also a cosponsor of Rob's measure as well; is that 
correct?
    Mr. Harrison. I am not certain we are cosponsors yet. We 
support Mr. Portman's bill, and we see this as complementary as 
we so applaud his efforts for reentry, training, support 
education. And our law doesn't want to preclude that in any 
measure. Certainly, just the aspect that it affects the child 
mandatory revocation would occur.
    Mr. Conyers. Would you do me the honor of looking at my 
bill on this same subject? Rob and I haven't talked yet. So if 
we send you over our bill, let's look at all of these together, 
because this is how it starts. And I'm happy that all of us are 
here and that even in the last few days of the Congress, this 
Subcommittee saw it important enough to take this under 
advisement.
    Mr. Coble. I thank the gentleman. And I thank----
    Mr. Portman. Could I have a moment to respond to Mr. 
Conyers?
    Mr. Coble. If you could do it quickly, because I was 
supposed to be at another meeting 5 minutes ago.
    Mr. Portman. I want to thank Mr. Conyers for his work on 
this issue and not just over the last year, but over the many, 
many years, and tell him I look forward to talking with him 
further about it. We appreciate the input you have given to 
this legislation, H.R. 4676, which is the new kid on the block. 
We have got now 47 cosponsors, 28 Democrats, 17 Democrats. 
Danny Davis was here earlier and his statement was put into the 
record first. I know you have some different provisions than 
our legislation. Yours has more funding. But I do think, as you 
said at the outset, we need to do what is doable and get 
something started, and that is what this legislation is meant 
to do.
    Mr. Conyers. Mr. Chairman, without trying to predict the 
outcome 26 days from now, if you want us to carry on the 
hearing for you, we would be happy to do that.
    Mr. Coble. I thank you all for being here, and I thank the 
witnesses here as well and those in the audience. You are 
interested in this issue, and you have hung tough with us as 
well. The Subcommittee appreciates the contribution of the four 
panelists.
    This concludes the oversight hearing on Federal offender 
reentry and protecting children from recidivists. The file will 
remain open for 5 days. If you all come across information that 
has not been submitted, the file will be open.
    We thank you for your cooperation, and the Subcommittee 
stands adjourned.
    [Whereupon, at 10:15 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prepared statement of the Honorable John Conyers, Jr., a Representative 
                 in Congress From the State of Michigan

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Prepared statement of the Honorable Danny Davis, a Representative in 
                  Congress from the State of Illinois

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Post-hearing questions from the Honorable Sheila Jackson Lee to the 
                         hearing witnesses \1\
---------------------------------------------------------------------------
    \1\ At the time this hearing was printed, the Committee had not 
received a response from Ms. Malika Saada Saar to the questions posed 
by Ms. Jackson Lee.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Response to post-hearing questions from the Honorable Rob Portman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Response to post-hearing questions from the Honorable Katherine Harris

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Response to post-hearing questions from Ashbel T. Wall, II

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
